                                                                 Issue Date
                                                                     January 9, 2012
                                                                 Audit Report Number
                                                                     2012-AT-1005




TO:         Jose Cintron, Director of Public Housing, Miami Field Office, 4DPH

             / /signed//
            James D. McKay, Regional Inspector General for Audit, Atlanta Region, 4AGA
FROM:

SUBJECT: The Housing Authority of the City of Fort Lauderdale, FL, Did Not Fully Comply
          With Federal Requirements When Administering Its Public Housing Capital Fund
          Recovery Grants

                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Housing Authority of the City of Fort Lauderdale’s administration
             of its Public Housing Capital Fund grants under the American Recovery and
             Reinvestment Act of 2009. This was an Office of Inspector General (OIG)-
             initiated audit in accordance with OIG’s 2010-2015 strategic plan to contribute to
             the effective use of Federal funds allocated by the Recovery Act. Our audit
             objective was to determine whether the Authority administered its Recovery Act
             capital funds in accordance with Federal requirements by assessing whether (1) its
             procurement process followed 24 CFR (Code of Federal Regulations) 85.36, (2)
             expenditures were eligible and supported, and (3) the information published on
             the Recovery Act Web site was accurate and supported.

 What We Found

             The Authority did not fully comply with regulations when procuring goods and
             services for three contracts. Specifically, it did not perform or document
             independent cost estimates or cost or price analyses to ensure the reasonableness
             of contract amounts. This condition occurred because the Authority lacked
             controls to ensure that staff performed the required cost estimates and analyses.
             As a result, the U.S. Department of Housing and Urban Development (HUD)
           could not be assured of the reasonableness of $470,980 expended for the three
           contracts.

           In addition, the Authority mismanaged its Recovery Act Capital Fund grants and
           did not follow Federal requirements when it failed to comply with obligation
           requirements, used funds to pay for ineligible and unsupported expenditures, and
           charged expenditures to the wrong work item. This noncompliance occurred
           because the Authority did not adequately plan the work of its force account labor
           and did not have sufficient management and financial controls. These
           deficiencies resulted in $321,627 in ineligible costs, $33,953 in unsupported costs,
           and $170,136 in funds to be put to better use.

           Further, the Authority did not report accurate job and vendor information on the
           Recovery Act Web site. This inaccuracy occurred because of staff error and a
           lack of understanding of the reporting requirements. As a result, the Authority
           did not provide the public with accurate information on how Recovery Act dollars
           were spent.

What We Recommend


           We recommend that the Director of the Miami Office of Public Housing require
           the Authority to (1) provide documentation to support that the contract costs of
           $470,980 were reasonable; (2) repay $321,627 to the U.S. Treasury for work that
           was not approved in its annual statement and for work charged to Recovery Act
           grants that was paid for by another Federal grant; and (3) implement controls to
           ensure that Capital Fund expenditures are consistent with the work identified in its
           annual statement, that sufficient documentation is maintained to show the scope
           of work, work performed, specific location of work, total cost, and funding source
           used to pay for the work, and expenditures are properly classified to the correct
           work item account code.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-4.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           The Authority did not agree with finding 1, recommendations 2A, 2B, and 2D.
           The Authority generally agreed with the OIG’s other recommendations in finding
           2, and finding 3. The complete text of the Authority’s response, along with our
           evaluation of the response, can be found in appendix B of this report. Exhibits
           and other documentation supplementing the Authority’s response were not
           included, but will be provided upon request.



                                            2
                             TABLE OF CONTENTS

Background and Objective                                                             4

Results of Audit
      Finding 1: The Authority Did Not Fully Comply With Procurement Regulations     6
      Finding 2: The Authority Mismanaged Recovery Act Funds and Did Not Follow      8
                 Federal Requirements
      Finding 3: The Authority Did Not Report Accurate Information on the Recovery   14
                 Act Web Site

Scope and Methodology                                                                16

Internal Controls                                                                    18

Appendixes
      A. Schedule of Questioned Costs and Funds To Be Put to Better Use              20
      B.   Auditee Comments and OIG’s Evaluation                                     21
      C.   Commitments Executed After Obligation Deadline                            33
      D.   Charges to Recovery Act and CDBG Grants                                   35
      E.   Step-Up Charges for Sailboat Bend Bathroom Rehabilitation Work            37




                                             3
                          BACKGROUND AND OBJECTIVE

The Housing Authority of the City of Fort Lauderdale was created by the City of Fort Lauderdale in
1938. Its mission is to assist low-income families by providing safe, decent, and affordable housing
opportunities as they strive to achieve self-sufficiency and improve their lives. The Authority
administers more than 2,400 Section 8 vouchers and manages more than 1,000 public and
affordable housing units, of which approximately 417 are public housing dwelling units. In
addition, the Authority has administered a State-certified Step-Up Apprenticeship Program since
1994. The objective of the program is to provide apprentices with access to education and
construction skills while working to rehabilitate housing in the community. These skills increase
the apprentices’ potential to obtain permanent employment and economic self-sufficiency.

On February 17, 2009, Public Law 111-5, also known as the American Recovery and
Reinvestment Act of 2009, was enacted. Title XII of the Recovery Act provided $4 billion in
public housing capital funds to public housing agencies to carry out capital and management
activities as authorized under Section 9 of the United States Housing Act of 1937, as amended.
The Recovery Act directed the U.S. Department of Housing and Urban Development (HUD) to
distribute $3 billion based on the same formula used to distribute the Public Housing Capital
Fund grants made available in fiscal year 2008 and to award $1 billion by competition for
priority investments, including investments that leverage private-sector funding or financing for
renovations and energy conservation retrofit investments.

In March 2009, the Authority was awarded more than $1.8 million in Public Housing Capital
Fund Recovery Formula funds. Then in September 2009, HUD awarded it two Public Housing
Capital Fund Recovery Competition grants, one for $262,500 and another for $322,500, to
moderately rehabilitate its public housing units to make the units more energy efficient. 1
Specifically, March 18 and September 24, 2009, are the effective dates on which assistance
became available to the Authority for obligation.

The Authority submitted its annual statements to HUD for the Capital Fund grants. The annual
statement is a work statement which details the major work categories and costs by development
or authority-wide for the Federal fiscal year. For the formula grant, the Authority used funds to
install fire sprinklers and alarms, security cameras, and steel stairways; rehabilitate bathrooms
and kitchens; and perform electrical upgrades and interior painting at three public housing
developments. For the competitive grants, the Authority used funds to install low-flow toilets,
high-efficiency air conditioning units, and energy-efficient lighting at two developments. These
capital work items were either performed by outside vendors or by the Authority’s Step-Up
program staff, which is its force account labor. Force account is defined as labor employed
directly by the housing authority either on a permanent or temporary basis.

HUD regulations stipulate that public housing agencies must obligate 100 percent of the grant
funds within one year, expend at least 60 percent of the grant funds within two years, and expend

1
 The competitive grants were awarded under category 4, option 2: Creation of Energy Efficient, Green
Communities: Moderate Rehabilitation.


                                                       4
100 percent of the grant funds within three years of the grant’s effective date. HUD’s Line of
Credit Control System indicates that the Authority obligated 100 percent of the Recovery Act
formula grant funds and competitive grant funds by the March 17, 2010, and September 23,
2010, deadlines. As of September 26, 2011, the Authority had drawn down $1.74 million of the
formula grant (or 94 percent) and $434,000 of the two competitive grants (or 74 percent). Our
audit objective was to determine whether the Authority administered its Recovery Act capital
funds in accordance with Federal requirements by assessing whether (1) its procurement process
followed 24 CFR (Code of Federal Regulations) 85.36, (2) expenditures were eligible and
supported, and (3) the information published on the Recovery Act Web site was accurate and
supported.




                                              5
                                RESULTS OF AUDIT
Finding 1: The Authority Did Not Fully Comply With Procurement
Regulations
The Authority did not fully comply with regulations when procuring goods and services for three
contracts. Specifically, it did not perform or document an independent cost estimate or a cost or
price analysis to ensure the reasonableness of the contract amounts. This condition occurred
because the Authority lacked controls to ensure that staff performed the required cost estimates
and analyses. As a result, HUD could not be assured of the reasonableness of the $470,980
expended for the three contracts.



 The Authority Did Not Perform
 Cost Estimates or Analyses


              We reviewed three contracts, totaling $470,980, to determine whether the Authority
              procured goods or services in compliance with HUD regulations at 24 CFR 85.36.
              We selected one contract from each of the three procurement methods. We
              reviewed a small purchase to procure and install emergency generators, a sealed bid
              to procure services to install exterior lighting, and a request for proposal to procure
              services to install the fire and alarm systems.

              The Authority did not fully comply with regulations when procuring goods and
              services for the three contracts reviewed. Specifically, it did not perform or
              document independent cost estimates for the three contracts or a price or cost
              analysis to determine that the contract amounts awarded for the exterior lighting and
              installation of the fire and alarm systems were reasonable. Further, for all three
              contracts, it did not perform a cost or price analysis to justify the amount paid to the
              vendors for additional work. HUD Handbook 7460.8, REV-2, paragraph 3.2D
              states that an independent cost estimate commensurate with the purchase
              requirement must be prepared before soliciting offers. HUD regulations at 24 CFR
              85.36(f) state that grantees must make independent estimates before receiving bids
              or proposals. The regulations also state that grantees must perform a cost or price
              analysis in connection with every procurement action including contract
              modifications. Particularly, a cost analysis will be necessary when adequate price
              competition is lacking and for sole source procurements, including contract
              modifications or change orders, unless price reasonableness can be established.




                                                 6
The table below details the results of our review.

                                     Amount       Contract      No independent   No cost or price
                                    contracted    included       cost estimate      analysis
                 Contract type       and paid    modification     performed        performed
                Emergency             $110,294        X                X                X
                generators
                Exterior lighting    $114,586         X               X                 X
                Fire and alarm       $246,100         X               X                 X
                systems
                      Total          $470,980



 The Authority Lacked Controls


               The Authority lacked controls to ensure that staff performed or properly
               documented independent cost estimates and cost or price analysis. However, it
               was aware of the requirement because the Authority’s procurement policy
               requires assurance that before entering into a contract, the price is reasonable.
               Officials acknowledged that the contract files did not contain documentation that
               staff performed the cost estimates and the cost or price analysis.

               Since the Authority did not perform or document independent cost estimates or
               price or cost analyses, it did not support the reasonableness of the contractors’
               costs. As a result, HUD could not be assured of the reasonableness of the three
               contracts’ costs, totaling $470,980.


 Recommendations


               We recommend that the Director of the Miami Office of Public Housing require the
               Authority to

               1A.     Provide documentation to support that the contract costs paid for the three
                       contracts, totaling $470,980, were reasonable. Any amount that cannot be
                       shown to be reasonable should be repaid to the U.S. Treasury from non-
                       Federal funds.




                                                 7
Finding 2: The Authority Mismanaged Recovery Act Funds and Did
Not Follow Federal Requirements
The Authority mismanaged its Recovery Act Capital Fund grants and did not follow Federal
requirements when it failed to comply with obligation requirements, used funds to pay for
ineligible and unsupported expenditures, and charged expenditures to the wrong work item. This
condition occurred because the Authority did not adequately plan the work of its force account
labor and did not have sufficient management and financial controls. These deficiencies resulted
in $321,627 in ineligible costs, $33,953 in unsupported costs, and $170,136 in funds to be put to
better use.


 Funds Were Inappropriately
 Obligated After Deadline
              Outside Vendors
              The Authority executed 17 commitments after the obligation deadlines. HUD
              regulations at 24 CFR 85.3 define obligation as the amount of orders placed,
              contracts and subgrants awarded, goods and services received, and similar
              transactions during a given period that will require payment by the grantee during
              the same or a future period. Title XII of the Recovery Act states that if a public
              housing agency fails to comply with the 1-year obligation requirement, HUD
              must recapture all remaining unobligated funds awarded to the housing agency.
              Public and Indian Housing (PIH) Notice 2009-12, section VI, and PIH Notice
              2010-34, section V.E., state that at the 1-year date, which is March 17, 2010, for
              the formula grant and September 23, 2010, for the competitive grants, all
              unobligated funds will be unilaterally recaptured. The notices further stipulate
              that extension of the obligation and expenditure deadlines is not permitted under
              the Recovery Act.

              We reviewed the commitments executed by the Authority with Recovery Act
              funds and the supporting invoices. The review showed that the Authority
              obligated funds without having commitments to support the amount obligated,
              and executed some commitments after the deadline. As of September 30, 2011,
              the funds expended on the 2 contracts and 15 purchase orders executed after the
              deadline total $211,289, and funds not yet expended total $93,956. Appendix C
              lists the 17 commitments that the Authority executed after the deadline and the
              amounts questioned.

              For example, the Authority obligated $300,000 for the bathroom rehabilitation
              work item at its Sailboat Bend public housing development. However, the
              Authority only executed $107,732 in commitments by the deadline to support the
              $300,000 obligation. Therefore, $192,268 of the $300,000 was not supported by
              commitments executed before the deadline. After the deadline, it executed
              additional commitments, for a cumulative total of $247,736. The Authority
              expended $229,665, of which $107,732 is eligible because the expenditures were


                                                8
            paid against commitments executed before the deadline and $121,934 is ineligible
            because the expenditures were paid against commitments executed after the
            deadline. The remaining $70,335 ($300,000 - $229,665), is funds to be put to
            better use because the funds were obligated without supporting commitments and
            have not yet been expended.

            Force Account Labor
            The Authority inappropriately obligated funds for its force account labor to install
            low-flow toilets at two public housing developments. Specifically, the force
            account labor did not start the work by the obligation deadline. PIH Notices
            2009-12 and 2010-34, section VII, state that for force account work, all funds for
            a group of sequentially related items are considered obligated when the first item
            is started but only when funds continue to be expended at a reasonable rate.

            On August 1, 2011, an Authority official stated that the force account had not
            started installing the toilets. In a later discussion, Authority officials stated that
            the force account had begun installing the toilets but said the work had not been
            charged to the grants. However, the Authority provided no documentation to
            evidence that its force account started the installation. The table below lists the
            two work items, obligation deadlines, funds budgeted, and funds not expended as
            of September 30, 2011.

              #       Work item –        Type of                                     Funds not
                     public housing    Recovery Act   Obligation       Funds         expended
                      development         grant        deadline      budgeted      as of 9/30/2011
              1   Low-flow toilets –    Competitive   9/23/2010       $57,375         $57,375
                  Sailboat Bend
              2   Low-flow toilets –    Competitive    9/23/2010      $18,805         $18,805
                  Sunnyreach Acres
                                                                       Total          $76,180

            Thus, the funds not expended as of September 30, 2011, were not properly
            obligated and are funds to be put to better use.

The Authority Had Ineligible,
Unsupported, and Misclassified
Expenditures

            The Authority charged $107,488 in ineligible and $33,953 in unsupported costs to
            the Recovery Act grants for work performed by its force account labor. In
            addition, it misclassified $24,608 in expenditures. Further, it paid two outside
            vendors $2,850 for ineligible costs.

            Authority’s Force Account Expenditures
            We reviewed the force account invoices charged to the Recovery Act grants for
            work performed on the bathroom and kitchen rehabilitation, painting, and
            electrical upgrade. Several expenditures were not eligible, not supported, and
            misclassified.


                                               9
The Authority charged the Recovery Act grant for costs that were paid with other
Federal funds. Appendix A of 2 CFR Part 225, C.3.c., states that any cost
allocable to a particular Federal award or cost objective may not be charged to
other Federal awards to overcome fund deficiencies, to avoid restrictions imposed
by law or terms of the Federal awards, or for other reasons. The Authority
received Community Development Block Grant (CDBG) funds from the City of
Fort Lauderdale for the operation of its Step-Up Apprenticeship Program for
Federal fiscal years 2010 and 2011. Other than the grant agreements, the
Authority refused to provide documentation that it submitted to the City for
reimbursement. We obtained the documentation from the City.

The documentation submitted to the City showed that CDBG funds reimbursed
the Authority for the salaries and benefits of Step-Up supervisors during the
period covered by the 2010 and 2011 CDBG grant agreements. We compared the
documentation that the Authority submitted to the City with the invoices that
supported the Step-Up staff’s time charged to the Recovery Act grants. Each
Recovery Act invoice was supported by an employee work log completed by one
of the Step-Up supervisors, which detailed the hours that the supervisor and the
apprentices worked, along with a description of the work performed. The
invoiced amount was the product of the number of hours that the Step-Up staff
worked multiplied by the charge rate of the supervisor and apprentice. This
amount mainly reimbursed the Step-Up program for the staff’s salaries.
Considering only those invoiced amounts related to the supervisors, the analysis
evidenced that the Authority charged the Recovery Act grant $36,743 in salaries
for those supervisors whose compensation was also reimbursed with CDBG
funds. These were duplicative payments and ineligible costs to the Recovery Act
grants. Appendix D details the 37 Step-Up invoices and the amounts charged to
both the Recovery Act and CDBG grants.

Other ineligible costs included (1) labor and material costs unrelated to the work
item identified in the annual statements, (2) work performed at locations other
than those listed in the annual statements, and (3) expenditures paid twice for the
same work. Unsupported costs included (1) labor costs that did not have the
employee work log to support the invoice or for which receipts for materials were
missing; (2) supporting documentation (such as employee work logs or receipts
for materials) that lacked a description of the work performed, contained an
unclear description of the work, or did not list the units where the work was
performed; and (3) hours charged on the invoices that were not supported by the
employee work logs. Misclassified amounts included those costs that were
charged to one work item but the work related to another Recovery Act work
item.




                                10
The table below details the ineligible and unsupported costs for each work item
and the amounts that should be classified to other work items. To avoid double
counting, the ineligible and unsupported amounts exclude the duplicate billing
resulting from the charges to the Recovery Act grant that were also reimbursed by
CDBG grants.

 #      Work item –
       public housing       Ineligible     Unsupported   Reclassify      Work item to
        development          amount          amount       amount          reclassify to
 1   Bathroom rehab –        $16,959          $5,257       $2,350      Bathroom rehab -
     Sailboat Bend                                                    Sunnyreach Acres
 2   Bathroom rehab –       $23,259          $11,382      $7,510        Kitchen rehab -
     Sunnyreach Acres                                                 Sunnyreach Acres
                                                          $3,841       Interior painting -
                                                                      Sunnyreach Acres
 3   Kitchen rehab –        $11,971          $16,495      $2,507       Bathroom rehab –
     Sunnyreach Acres                                                 Sunnyreach Acres
                                                          $1,382      Interior painting –
                                                                      Sunnyreach Acres
                                                           $769       Air conditioning –
                                                                      Sunnyreach Acres
 4   Interior painting –    $18,196           $511        $3,522        Kitchen rehab -
     Sunnyreach Acres                                                 Sunnyreach Acres
                                                          $2,346       Bathroom rehab -
                                                                      Sunnyreach Acres
                                                           $381       Electrical upgrade -
                                                                      Sunnyreach Acres
 5   Electrical upgrade –     $360            $308          $0
     Sunnyreach Acres

            Total           $70,745          $33,953      $24,608

Our review of the force account expenditures for the bathroom rehabilitation work
item at Sailboat Bend showed that $16,959 of the $25,706 expended was
ineligible because the work was not completed in accordance with the Authority’s
annual statement. PIH Notice 2009-12, section VI, states that public housing
agencies must use Recovery Act funds on Capital Fund-eligible activities
currently identified in either their annual statement or 5-year action plan.
Contracts were executed with the force account, but attachments to the contract
and invoices evidenced that the work was performed by outside vendors.
Authority staff stated that force account labor did not perform bathroom
rehabilitation work at the development. Our review also showed that the force
account expenditures related to work in the kitchen and not the bathroom. These
expenditures were ineligible because the Authority did not budget funds for
kitchen work at Sailboat Bend in its annual statement. Appendix E details our
assessment of the invoices charged for the bathroom rehabilitation work
performed by Step-Up at Sailboat Bend.




                                      11
             Expenditures by Outside Vendors
             The Authority charged the bathroom rehabilitation work item $4,400 for work
             performed at three units that did not relate to bathroom rehabilitation. The work
             consisted of installing front doors, removing kitchen cabinets, and painting. Of
             the amount, $2,450 needs to be repaid because the other $1,950 is included as part
             of the questioned costs for the commitments executed after the obligation
             deadline. The Authority also charged the painting work item an additional $400
             for painting the same unit twice. The ineligible costs paid to the two vendors
             totaled $2,850.

The Authority Lacked
Adequate Controls

             The Authority allowed the conditions described above to occur when it did not (1)
             adequately plan the work of its force account labor and (2) have sufficient
             management and financial controls. Authority officials explained that the
             Authority gave its force account preference to perform work on the Recovery Act
             work items. HUD allows and encourages the use of force account labor. PIH
             Notice 2009-12, sections VI and VII, state that to the extent feasible, the housing
             agency should consider employing existing or additional force account laborers to
             perform Recovery Act Capital Fund work. However, the housing agency shall
             use force account labor if it has the capacity to serve as its own main contractor.
             The Authority did not have a clearly written scope of work that detailed the tasks
             that its force account labor would perform on the Recovery Act work items, the
             units that would be worked on, and the cost of the work. The Authority provided
             contracts that it executed with its force account. Although the contracts listed the
             general work that would be performed at a unit, they did not indicate the funding
             source that would pay for the work or the cost of the work. Thus, we could not
             correlate the units listed on the invoices with the units planned to be worked on by
             the force account.

             In addition, the Authority lacked sufficient management and financial controls to
             ensure that (a) force account labor started work identified in the annual statements
             before the obligation deadlines, (b) expenditures were not charged twice, (c)
             expenditures were for eligible Recovery Act capital work consistent with the
             work identified in the annual statements, and (d) expenditures were accurately
             allocated to the correct work item.

Conclusion


             The Authority mismanaged its Recovery Act Capital Fund grants and did not
             follow Federal requirements when it failed to comply with obligation
             requirements, used funds to pay for ineligible and unsupported expenditures, and




                                              12
          misclassified expenditures. These deficiencies resulted in $321,627 in ineligible
          costs, $33,953 in unsupported costs, and $170,136 in funds to be put to better use.

Recommendations

          We recommend that the Director of the Miami Office of Public Housing

          2A.     Require the Authority to repay $211,289 to the U. S. Treasury from non-
                  Federal funds for the expenditures paid on the commitments that the
                  Authority executed after the 1-year obligation deadline.

          2B.     Recapture from the Line of Credit Control System $170,136, of which
                  $93,956 is for unspent funds that were obligated after the deadline and
                  $76,180 is for unspent funds that have not yet been obligated.

          2C.     Require the Authority to repay $36,743 to the U.S. Treasury from non-
                  Federal funds for the duplicative expenditures charged for the Step-Up
                  supervisors’ salaries or provide documentation to evidence that the
                  condition has been corrected.

          2D.     Require the Authority to repay the $70,745 to the U.S. Treasury from non-
                  Federal funds for the ineligible costs charged to the Recovery Act grants
                  by its force account.

          2E.     Require the Authority to provide documentation to support that $33,953 of
                  the costs charged by Step-Up were for Recovery Act-funded work items
                  and for those amounts that cannot be sufficiently supported, repay the U.S.
                  Treasury from non-Federal funds.

          2F.     Require the Authority to reclassify the $24,608 in expenditures to the
                  appropriate work item accounts to accurately track and account for each
                  work item.

          2G.     Require the Authority to repay $2,850 to the U.S. Treasury from non-
                  Federal funds for the ineligible expenditures that the Authority made from
                  the Recovery Act funds to two vendors.

          2H.     Require the Authority to implement controls to ensure that (a) Capital
                  Fund grant funds are obligated on time; (b) expenditures are eligible
                  capital work items consistent with the work identified in its annual
                  statement; (c) sufficient documentation is maintained to show the scope of
                  work, work performed, specific location of work, total cost, and funding
                  source used to pay for the work; and (d) expenditures are properly
                  classified to the correct work item account code.




                                           13
Finding 3: The Authority Did Not Report Accurate Information on the
Recovery Act Web Site
The Authority did not report accurate job and vendor information on the Recovery Act Web site.
This condition occurred because of staff error and a lack of understanding of the reporting
requirements. As a result, the Authority did not provide the public with accurate information on
how Recovery Act dollars were spent.


We reviewed the three most recent reporting quarters (October 1, 2010, through June 30, 2011) for
the Recovery Act Capital Fund formula and two competitive grants.

 The Authority Reported an
 Inaccurate Number of Jobs

               The Authority did not report an accurate number of jobs on the Recovery Act
               Web site. Section 1512 of the Recovery Act requires the recipient of the funds to
               report an estimate of the number of jobs created and the number of jobs retained
               by the project or activity. Office of Management and Budget (OMB)
               Memorandum 10-08, part 2, section 5.3, states that the requirement for reporting
               estimates of the “number of jobs” is based on a calculation that divides the total
               number of hours worked and funded by the Recovery Act within the reporting
               quarter by the number of quarterly hours in a full-time schedule.

               For the January 1 through March 31, 2011, reporting quarter, the number of jobs
               reported on two Recovery Act grants was not accurate. Under the formula grant
               (FL14S01050109), staff included hours that were outside the reporting dates,
               thereby overstating the number of hours funded by the Recovery Act. Under one
               competitive grant (FL01000010709R), staff did not include overtime hours,
               thereby understating the number of hours funded by the Recovery Act. Staff
               acknowledged the mistake. For the April 1 through June 30, 2011, reporting
               quarter, the number of jobs reported on one competitive grant (FL01000010509R)
               was also not accurate. Authority staff explained that the vendor incorrectly
               completed the payroll wage and hour forms and staff did not acknowledge the
               vendor’s remarks indicating that only a portion of the hours listed on the forms
               applied.


 The Authority Did Not Report
 Vendor Information

               The Authority did not report vendor information on the Recovery Act Web site.
               OMB memorandum 10-34 requires the recipient to report the number of payments
               to vendors that have a contract for less than $25,000 per award and report a
               cumulative amount paid to vendors that have a contract for less than $25,000 per


                                                14
             award. Payments that exceed the $25,000 threshold are reported in the vendor
             section of the report, which lists the vendor, product or service, and payment
             amount.

             Documentation showed that the Authority paid several vendors less than $25,000
             per award and several vendors $25,000 or more per award. However, the reports
             submitted by the Authority showed that it did not report the number of payments
             made to vendors that had contracts for less than $25,000 per award or the
             cumulative amount paid to these vendors. In addition, the Authority did not
             complete the information in the vendor section to identify those vendors that were
             paid $25,000 or more. Authority staff stated that the information regarding the
             number of payments to the vendors and amount paid to them was not reported
             because staff believed that the vendor information was not applicable. After our
             discussion, staff agreed that the number of payments to the vendors and payment
             amounts to the vendors should have been reported.


Conclusion


             The Authority did not report an accurate number of jobs and vendor information
             on the Recovery Act Web site. These deficiencies occurred due to staff error and
             a lack of understanding of the reporting requirements. As a result, the Authority
             did not provide the public with accurate information on how Recovery Act dollars
             were spent, nor did it provide transparency regarding the use of the funds.

Recommendations

             We recommend that the Director of the Miami Office of Public Housing require the
             Authority to

             3A.    Recalculate the number of jobs created or retained for the January 1
                    through March 31, 2011, quarter for grants FL14S01050109 and
                    FL01000010709R and for the April 1 through June 30, 2011, quarter for
                    grant FL01000010509R and maintain documentation to support the
                    correct amounts in its records until the Recovery and Accountability
                    Transparency Board determines the best approach for making this
                    information available on Recovery.gov.

             3B.    Report the number of payments and amount of payments to vendors that it
                    paid less than $25,000 per award and vendors that it paid $25,000 or more
                    per award and for each reporting quarter for which the data elements were
                    not reported, maintain the supporting information in its records until the
                    Recovery and Accountability Transparency Board determines the best
                    approach for making this information available on Recovery.gov.



                                             15
                         SCOPE AND METHODOLOGY

We audited the Authority to determine whether it administered its Recovery Act capital funds in
accordance with Federal requirements by assessing whether (1) its procurement process followed
24 CFR 85.36, (2) expenditures were eligible and supported, and (3) the information published
on the Recovery Act Web site was accurate and supported.

To accomplish our objective, we

 •   Reviewed relevant Federal laws and regulations to include the Recovery Act, 24 CFR Part
     85, 24 CFR Part 968, 2 CFR Part 225, PIH notices, OMB memorandums, and HUD
     Handbook 7460.8, REV-2;

 •   Interviewed HUD officials to obtain information about the Authority and to discuss
     findings; and

 •   Interviewed Authority officials to understand the policies and procedures that staff
     followed to administer the Recovery Act Capital Fund program as they related to our
     objective and to obtain clarifications during fieldwork.

For the procurement review, we selected the contract with the highest dollar amount from each
of the three procurement method types: small purchase, sealed bid, and competitive proposal.
According to information provided by the Authority as of June 20, 2011, it had executed 54
commitments, totaling $2.25 million. The three contracts totaled $470,980 and covered 21
percent of the total contract costs. We reviewed Authority files to understand the procurement
history of the three contracts to determine whether the Authority complied with 24 CFR 85.36,
performed site visits to determine whether purchased items were produced in the United States,
and researched manufacturer Web sites to determine the Authority’s compliance with the “buy
American” requirement. We found that the products procured were manufactured in the United
States and followed the buy American requirement.

For the expenditure review, we selected expenditures related to the bathroom rehabilitation work
item mainly due to the large dollar amount expended on the work item. As of June 20, 2011, the
Authority had expended $1.97 million of its Recovery Act funds. Expenditures related to the
bathroom rehabilitation work item selected for review totaled $424,000, or 21 percent. We
analyzed documentation supporting expenditures charged by vendors and the Authority’s force
account labor for the work item. During the audit, we expanded our review to include the
kitchen rehabilitation, interior painting, and electrical upgrade work performed by the
Authority’s force account labor. In addition, we reviewed City of Fort Lauderdale files related to
its agreement to provide CDBG program funds to the Authority to operate its Step-Up program,
reviewed executed contracts and purchase orders to determine whether the Authority met
obligation deadlines, and performed site visits to determine whether capital work items had been
completed.




                                               16
In our analysis of the Step-Up expenditures, we determined that several expenditures were
ineligible, unsupported, or classified to the wrong work item accounting code. Since many of the
expenditures involved work at multiple units or multiple tasks, we assessed and allocated each
expenditure amount among the categories of eligible, ineligible, unsupported, or misclassified.
We generally calculated the allocated questioned amounts based on the following methods: (1)
for expenditures showing that the work was performed at a development other than that listed on
the annual statement, 100 percent was ineligible; (2) for expenditures that charged for work
unrelated to the work identified in the annual statement, 100 percent was ineligible; (3) for
expenditures involving multiple units, the amount was divided by the number of units listed; (4)
for expenditures involving multiple tasks, the amount was divided by the number of work items;
(5) for rehabilitation involving only the bathroom and kitchen, 50 percent was allocated between
the two items; and (6) for rehabilitation work performed for the entire unit, we allocated any
questioned costs based on the square footage of the area of the work performed.

For the reporting review, we initially reviewed the documentation supporting the data elements
related to the total Recovery Act funds expended, the number of jobs, and the vendor payment
information reported on the Recovery Act Web site for the first quarter of 2011. Since the
review resulted in exceptions in the latter two data elements, we expanded our review to include
the fourth quarter of 2010 and second quarter of 2011.

We did not perform a 100 percent selection or a representative selection on all procured
contracts, expenditures from Recovery Act funds, or reports submitted to the Federal Web site
using statistical or nonstatistical sampling. Given our methodologies, the results of our review
apply only to the samples selected for review and cannot be projected to the universe of
contracts, expenditures, and submitted reports.

We assessed that computer-processed data generated by the Authority were not used to
materially support our audit findings, conclusions, and recommendations. Thus, we did not
assess the reliability of the Authority’s computer-processed data.

Our review generally covered the period March 1, 2009, to May 31, 2011, and was extended as
needed. We performed the work from June to November 2011 at the Authority’s central office
located at 437 Southwest 4th Avenue, Fort Lauderdale, FL, at one of the Authority’s public
housing developments located at 425 Southwest 4th Avenue, Fort Lauderdale, FL, and our office
in Miami, FL.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                                17
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
               We determined that the following internal controls were relevant to our audit
               objectives:

               •   Program operation - Policies and procedures that management has
                   implemented to reasonably ensure that the program meets its objectives.
               •   Compliance with laws and regulations - Policies and procedures that
                   management has implemented to reasonably ensure that program
                   implementation is consistent with laws and regulations.
               •   Relevance and reliability of information - Policies and procedures that
                   management has implemented to reasonably ensure that operational and
                   financial information used for decision making and reporting externally is
                   relevant, reliable, and fairly disclosed in reports.
               •   Safeguarding of assets - Policies and procedures that management has
                   implemented to reasonably prevent and promptly detect unauthorized
                   acquisition, use, or disposition of assets and resources.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.




                                                 18
Significant Deficiencies


             Based on our review, we believe that the following items are significant deficiencies:

             •   The Authority did not perform independent cost estimates and cost or price
                 analyses to ensure the reasonableness of contract costs (see finding 1).

             •   The Authority expended Recovery Act funds which were ineligible,
                 unsupported, and misclassified (see finding 2).

             •   The Authority did not report an accurate number of jobs and did not report
                 vendor payment information on the Recovery Act Web site (see finding 3).




                                              19
                                   APPENDIXES

Appendix A

              SCHEDULE OF QUESTIONED COSTS
             AND FUNDS TO BE PUT TO BETTER USE

     Recommendation           Ineligible 1/        Unsupported 2/     Funds to be put to
            number                                                         better use 3/
            1A                                          $470,980
            2A                   $211,289
            2B                                                                 $170,136
            2C                    $36,743
            2D                    $70,745
            2E                                            $33,953
            2G                     $2,850                _______              ________
           Total                 $321,627               $504,933               $170,136


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. These amounts include reductions in outlays, deobligation of funds,
     withdrawal of interest, costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. If the Miami HUD office implements recommendation
     2B, Recovery Act funds will be deobligated and can be used for other eligible activities.




                                              20
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation                                  Auditee Comments




                         HOUSING AUTHORITY
                         of the City of Fort Lauderdale                   Established 1938 • www.hacfl.com

            December 16, 2011
            VIA FIRST CLASS MAIL AND E-MAIL

            Mr. James D. McKay
            U.S. Department of Housing and Urban Development
            Region 4, Office of Inspector General
            Office of Audit, Box 42
            Richard B. Russell Federal Building
            75 Spring Street, SW, Room 330
            Atlanta, GA 30303-3388

                      RE:     Management Comments to Discussion Draft Audit Report Regarding
                              Administration of Public Housing Capital Fund Recovery Grants
            Dear Mr. McKay:
                    On behalf of the Housing Authority of the City of Fort Lauderdale (the "Authority"), I
            am writing to provide the Authority's comments to the discussion draft audit report (the
            "Report") from the Office of Inspector General (the "OIG") relating to the Authority's
            administration of its public housing capital fund recovery grants. The Report's objective was to
            determine whether the Authority properly administered Capital Funds received pursuant to the
            American Recovery and Reinvestment Act of 2009 (the "Recovery Act"). As set forth in detail
            herein, we believe the Authority properly and efficiently obligated and administered its
            Recovery Act funds.
                      The following are our comments on each of the findings and recommendations:
            Finding 1: The Authority Did Not Fully Comply With Procurement Regulations
            Recommendations
            That the Director of the Miami Office of Public Housing required the Authority to:

                      1 A. Provide documentation to support that the contract costs paid for the three
                      contracts, totaling $470,980, were reasonable. Any amount that cannot be shown
                      to be reasonable should be repaid to the U.S.Treasury from non-federal funds.
            Central Office.              Robert P. Kelley Building:
            437 Southwest 4th Avenue     500 W. Sunrise Boulevard
             Fort Lauderdale, FL 33315   Fort Lauderdale, FL 33311
            (954) 525-6444               (954) 556-4100


                                                          21
            Mr. James D. McKay
            December 16, 2011
            Page 2

            Authority's Response: This finding deals with three separate contracts utilizing
Comment 1
            three separate procurement methods. For each, the OIG alleges that the Authority
            did not perform an independent cost estimate or a price or cost analysis to
            determine that the contract amounts awarded were reasonable. Additionally, for
            two of the three contracts, the OIG alleges that a price or cost analysis was not
            done to determine if the amounts paid to vendors for additional work was
            reasonable.

            The OIG clearly failed to accurately review the Authority's records. Had it done
            so, it would have seen that the Authority obtained appropriate, independent cost
            estimates for all three contracts. Each of the three contracts, and the manner in
            which the independent cost estimates were obtained, are more fully described
            below.

            Emergency Generators:

            In 2008 the Authority issued IFB08-02 to procure emergency generators for
            Sunnyreach Acres. At that time, a number of bids were received. Due to a major
            fire at Sunnyreach Acres in March of 2008, the bids were all rejected and no bid
            was awarded. In September 2009, the Authority went back out to procure
            emergency generators. At this time, the Authority utilized the results of IFB08-02
            to prepare a cost estimate. The bids received from the 2008 solicitation averaged
            $97,128. These bids were the basis for the independent cost estimate utilized to
            procure emergency generators. The Authority followed the applicable
            procurement guidelines to purchase emergency generators totaling $110,294. A
            copy of the bids for IFB08-02 and the cost estimate done in 2009 are attached as
            Exhibit 1A1.

            Exterior Lighting:

            The Authority contracted with Lightseekers, Inc. to provide specifications for
            lighting at both Sailboat Bend and Sunnyreach Acres. In May 2010, Lightseekers
            forwarded a proposal to the Authority with specifications for fixtures that met
            Broward County light levels for exterior lighting. In July 2010, Lightseekers
            provided independent cost estimates for exterior lighting at Sailboat Bend and
            Sunnyreach Acres, a copy of which is attached as Exhibit 1A2. The Authority
            utilized these independent cost estimates when procuring the exterior lighting.
            Lightseekers was not a bidder and the contract was awarded to Live Wire for
            Sailboat Bend and to C. W. Fisher for Sunnyreach Acres.




                                             22
            Mr. James D. McKay
            December 16, 2011
            Page 3

Comment 1   Fire and Alarm Systems:

            After a fire in 2008, Francis Engineering, Inc. was procured to prepare a proposal
            to upgrade the fire and alarm systems at Sailboat Bend and Sunnyreach Acres.
            The cost estimate revealed that the Authority lacked the financial wherewithal to
            proceed with the work.

            In 2010, when the Recovery Act funds became available, the Authority proceeded
            with a procurement for fire and alarm systems for both Sailboat Bend and
            Sunnyreach Apartments. The Authority obtained the Broward County School
            Board (the "School Board") Request for Proposals ("RFP") and the contract the
            School Board entered into for fire and alarm systems. Independent cost estimates
            were completed based on the 2008 Francis Engineering, Inc. cost estimate which
            is attached as exhibit 1A3 and the responses received by the School Board. These
            documents, which were provided to the OIG, formed a correct and appropriate
            basis for the independent cost estimate. The contract for sprinklers and alarms
            was ultimately awarded to Sprinklermatic.

            Finding 2: The Authority Mismanaged Recovery Act Funds And Did Not Follow
            Federal Requirements

            Recommendations

            That the Director of the Miami Office of Public Housing required the Authority to:

                   2A. Require the Authority to repay $211,289 to the U.S. Treasury from non-
                   federal funds for the expenditures paid on the commitments that the Authority
                   executed after the I-year obligation deadline.

                   Authority's Response:
Comment 2
                   Recommendation 2A is comprised of a multitude of small findings. The
                   Authority obligated $300,000 for the bathroom rehabilitation work at Sailboat
                   Bend. The Authority properly procured Spires Construction which bid to do
                   work on 100 bathrooms for a total of $300,000. The Authority executed a
                   contract with Spires to do the work in phases. The first phase was the
                   rehabilitation for 24 bathrooms for $70,831. The contract incorporated the
                   RFP as an appendix which required Spires Construction to do all 100
                   bathrooms in phases. The $70,831 was obligated and spent within the
                   required timeframe. The remaining 76 bathrooms to be rehabilitated at a cost
                   of $229,169 were obligated, but work had not yet begun.




                                            23
            Mr. James D. McKay
            December 16, 2011
            Page 4

                   Prior to the contract deadline and due to the severe economic recession, Spires
                   went out of business. The Authority was forced to enter into a contract with the
                   next responsive bidder, Distinctive Home Builders. That contract was executed
                   on November 29, 2010 and Distinctive Home Builders completed the bathroom
                   renovation work, thus spending the balance of the funds within the required
                   timeframe. The OIG takes the position that the Distinctive Home Builders
                   contract was entered into after the obligation deadline and thus the funds were not
                   obligated. On the contrary, the funds were obligated when the contract with
                   Spires Construction was executed. That obligation was passed onto Distinctive
                   Home Builders after Spires Construction went out of business. Thus, the
                   Authority was compliant.

                   The Authority believes that HUD should take "judicial notice" of the fact that the
                   Authority properly procured and entered into a contract with the procured party
                   (Spires Construction) and obligated the funds in a timely manner. Only the state
                   of the U.S. economy precluded the Authority from completing the work as
                   required under the Recovery Act. Thus, HUD should waive any noncompliance
                   with the obligation deadline.

                   The second portion of Recommendation 2A consists of purchase orders to
Comment 3          Distinctive Home Builders awarded between May 2010 and June 2011 (Report
                   Appendix C - Vendor A). Those purchase orders totaling $31,000 should have
                   been charged to the appropriate AMP's Capital Fund not the Recovery Act. A
                   journal entry has corrected this oversight. Similarly, $7,225 in purchase orders
                   (Vendor B) should have been charged directly to the appropriate AMP's Capital
                   Fund and not the Recovery Act. Again, a journal entry has corrected this
                   oversight.

                   2B. Recapture from the Line of Credit Control System $162,336 ($86,156
                   + 76,180) for unspent funds that were obligated after the deadline.

                   Authority's Response:

Comment 4          The Recommendation contained in Section 2B consists of two separate findings.
                   The first consists of $76,180. These are funds that were being used to purchase
                   and install low flow toilets at Sailboat Bend and Sunnyreach Acres. There has
                   been a budget revision done within this grant to transfer the unspent amount to
                   the other BLI of interior and exterior lighting, which has been approved by the
                   field office. These funds have been put to better use. Accordingly, the $76,180
                   should not be recaptured in the line of credit control system ("LOCCS").

Comment 5          The remaining $86,156 deals with work for a bathroom rehabilitation at Sailboat
                   Bend and flooring at Sunnyreach Acres. The Sailboat Bend bathroom
                   rehabilitation was intended to be part of the contract with Spires Construction but
                   was ultimately done by Distinctive Builders after Spires Construction went out of




                                             24
            Mr. James D. McKay
            December 16, 2011
            Page 5

                  business. As set forth in Section 2A, the Authority properly and promptly
                  engaged the replacement party. As with Finding 2A, the Authority believes that
                  HUD should take notice of the fact that the Authority properly procured and
                  entered into a contract and that only the state of the United States' economy
                  precluded the Authority from completing the work as required under the
                  Recovery Act. Also the flooring contract at Sunnyreach Acres was originally
                  obligated using Andreu Construction. Prior to the end of the grant term, the
                  Authority decided to do additional work and issued a RFP. McDonalds Flooring
                  was the successful bidder and was awarded the contract.

                  2C Require the Authority to repay $36,743 to the U.S. Treasury from non-federal
                  funds for the duplicative expenditures charged for the Step-Up supervisors'
                  salaries.

                  Authority's Response:
                  The City of Fort Lauderdale awards the Authority CDBG funds annually to
                  offset certain costs of the Step-Up training program run by the Authority. The
Comment 6         CDBG award is a small fraction of the total cost of operating the training
                  program. The Housing Authority provides a billing to the City to draw down the
                  CDBG award. The billing provided to the City of Fort Lauderdale is done on a
                  gross payroll basis for all supervisors.

                  Recommendation 2C requires the Authority to repay $36,743 for duplicate
                  expenditures charged to both the Recovery Act funds and the City of Fort
                  Lauderdale CDBG. While the OIG is right and there is a rnisclassification of
                  funds, the Authority is in the process of correcting the billing to the City of Fort
                  Lauderdale so there will be no duplication. The $36,743 was properly drawn
                  from Recovery Act funds.

                  2D. Require the Authority to repay the $70,745 to the U.S. Treasury from non-
                  federal funds for the ineligible costs charged to the Recovery Act grants by its
                  force account.

                  Authority's Response:

                  The OIG suggests the Authority repay Recovery Act funds simply because the
Comment 7         Authority provided too much specificity in its records. The Authority followed
                  the instructions of HUD Form 50075.1 entitled "General Description of Major
                  Work Items". These are defined as:

                          For each development listed, enter a general description of the
                          major work categories, including those that will be funded with
                          non-CFP funds and no cost items. Work categories should be
                          described in broad terms, such as kitchens, bathrooms, electrical,




                                            25
             Mr. James D. McKay
             December 16, 2011
             Page 6
                           site, etc. A work category may encompass various components;
                           e.g., a major work category of kitchens may include ranges,
                           refrigerators, cabinets, floors, etc.

                    Attached as Exhibit 2D is a sample breakdown of the work constituting the
                    $70,745 the OIG believes should be considered ineligible costs. These costs were
                    for the rehabilitation of bathrooms, kitchens, interior painting and electrical. Had
                    the Authority simply defined these work items that way, the OIG would have no
                    finding. However, the Authority was more specific. It noted where kitchen
                    faucets had to be replaced, where toilets had to be replaced, and where cabinets
                    had to be measured before new cabinets were cut and installed. The OIG
                    mistakenly looks at each separate item and assumes them to be maintenance
                    when in fact they were for a total rehabilitation.

                    2E. Require the Authority to provide documentation to support that $33,953 of
                    the costs charged by Step-Up were for Recovery Act-funded work items and for
                    those amounts that cannot be sufficiently supported, repay the U.S. Treasury from
                    non-federal funds.

                    Authority's Response:

Comment 8           As with Recommendation 2D, the amounts the OIG believes should be
                    considered unsupported were for the work done to rehabilitate bathrooms,
                    kitchens, interior painting and electrical. Exhibit 2D once again clearly shows a
                    sample and explains in detail the work done and the proper classifications.

                    2F. Require the Authority to reclassify the $24,608 in expenditures to the
                    appropriate work item accounts to accurately track and account for each work
                    item.

                    Authority's Response:

Comment 9           The report indicates the Authority should reclassify $24,608 to the appropriate
                    work item account. This would normally be done in the Authority's year-end
                    review of its books and records, and it will be done promptly as required by the
                    OIG.

                    2G. Require the Authority to repay $2,850 to the U.S. Treasury from non-federal
                    funds for the ineligible expenditures that the Authority made to two vendors.

                    Authority's Response:

                    The amount of $2,850 was for work done inside a unit but outside of bathroom
Comment 10          and kitchen work. For example, the money was spent to replace closet doors and
                    other related work. The total contract price included kitchen and bathroom
                    rehabilitation,



                                            26
             Mr. James D. McKay
             December 16, 2011
             Page 7

                    and other work items. Accordingly the $2,850 is an unrelated expense and
                    will be reclassified as a capital improvement at the appropriate AMP.

                    2H Require the Authority to implement controls to ensure that (a) force
                    account labor costs charged to the Capital Fund grants are obligated on
                    time; (b )expenditures are eligible capital work items consistent with the
                    work identified in its annual statement; and (c) sufficient documentation is
                    maintained to show the scope of work, work performed, specific location
                    of work, total cost, and funding source used to pay for the work.

                    Authority's Response:
Comment 11          The Authority has already implemented new scope of work forms with
                    details to include unit locations and unit numbers. New procedures for the
                    use of force account labor have been implemented. The Report indicated
                    that certain eligible work items had not been included in the Authority's
                    annual plan or five year work plan. The Authority has included a copy of
                    the five year work plan submitted to HUD as Exhibit 2H. The new five
                    year plan shows a detailed list of work involved in each work item. By
                    definition, all work items are eligible pursuant to the annual plan and
                    HUD Form 50075.1

             Finding 3: The Authority did not report an accurate number of jobs and vendor
             information on the Recovery Act Web site. These deficiencies occurred due to staff
             error and a lack of understanding of the reporting requirements. As a result, the
             Authority did not provide the public with accurate information on how Recovery Act
             dollars were spent, nor did it provide transparency regarding the use of the funds.

             Recommendations

             That the Director of the Miami Office of Public Housing required the Authority
             to:
                    3A. Recalculate the number of jobs created or retained for the January 1
                    through March 31, 2011, quarter for grants FL14S01050109 and
                    FL01000010709R and for the April 1 through June 30, 2011, quarter for
                    grant FL01 00001 0509R and maintain documentation to support the
                    correct amounts in its records until the Recovery and Accountability
                    Transparency Board determines the best approach for making this
                    information available on Recovery.gov.

                    Authority's Response:

Comment 12          Unfortunately, the Authority made a calculation error when calculating the
                    number of hours and reporting thereof on the Recovery Act website. The hours
                    reported were immaterial. While the system will not permit a change at this time,
                    the Authority will correct its internal records and wait for the Recovery and


                                             27
             Mr. James D. McKay
             December 16, 2011
             Page 8

                     Accountability Transparency Board to determine the best approach. It
                     will also make the information available to the Miami Field Office.

                     3B. Report the number of payments and amount of payments to
                     vendors that it paid less than $25, 000 per award and vendors that it
                     paid $25, 000 or more per award and for each reporting quarter for
                     which the data elements were not reported, maintain the supporting
                     information in its records until the Recovery and

                     Accountability Transparency Board determines the best approach for
                     making this information available on Recovery.gov.

                     Authority's Response:

                     The Authority will report the number of payment and the amount of
Comment 12           payments to vendors in its next reporting cycle. The Authority will
                                          Comment
                     also correct its internal records 12
                                                       for the previous periods and maintain
                     this information until the Recovery and Accountability Transparency
                     Board determine the best approach. The Authority will make all such
                     information available to the Miami Field Office.

                     We thank you for your consideration of the Authority's response. As you
             know, the Authority has worked diligently to ensure that it meets the needs of its
             residents and complies with all rules and regulations promulgated by HUD.

             Very truly yours,
             ~~

             Tam A. English,
             Executive Director

             cc:     Michael H. Syme, Esq.




                                               28
                         OIG Evaluation of Auditee Comments

Comment 1   The Authority did not agree with finding 1. It stated that it had documentation to
            show that it performed independent cost estimates when procuring the three
            contracts and provided the documentation with its response.

            HUD regulations at 24 CFR 85.36(b)(9) state that grantees will maintain records
            sufficient to detail the significant history of a procurement. These records will
            include, but are not limited to the rationale for the method of procurement,
            selection of contract type, contractor selection or rejection, and the basis for the
            contract price. Regulations at 24 CFR 85.36(f) also requires grantees to perform a
            cost or price analysis in connection with every procurement action including
            contract modifications. At the time of our review, the documentation provided by
            the Authority in its response was not maintained in the procurement files for the
            contracts and the contract modifications and was not provided to OIG for review.
            We revised the finding to state that the Authority did not perform or document
            that it performed the required cost estimates or analysis. The Miami HUD Office
            will review the sufficiency of the documentation to determine whether the
            Authority performed the required independent cost estimates for the three
            contracts.

Comment 2   The Authority did not agree with recommendation 2A as it related to the $300,000
            obligation for the bathroom rehabilitation work at Sailboat Bend. It stated that its
            contract with Spires Construction properly obligated the $300,000 because the
            request for proposal incorporated in the contract required the vendor to perform
            all 100 bathrooms at the development. When Spires Construction went out of
            business, the Authority entered into a contract with Distinctive Home Builders
            and reasoned that the obligation of the funds passed onto the contract with
            Distinctive Home Builders.

            The contract with Spires Construction stipulated a “not-to-exceed” value of
            $70,831 for work at Sailboat Bend for only the first 24 bathrooms. The invitation
            for bid indicated that upon completion of the initial 24 bathrooms, the Authority
            and the contractor may extend the contract for an additional 24 bathrooms at each
            location. The option to extend does not support the full $300,000 obligation.
            HUD regulations at 24 CFR 85.3 define obligation as the amount of orders
            placed, contracts and subgrants awarded, goods and services received, and similar
            transactions during a given period that will require payment by the grantee during
            the same or a future period. Therefore, the contract with Spires Construction only
            obligated $70,831 in Recovery Act funds of the $300,000 the Authority obligated
            for the bathroom rehabilitation work at Sailboat Bend. Commitments executed
            after the obligation deadline are not valid obligations of Recovery Act funds. As
            a result, the Authority must repay the U.S. Treasury from non-Federal funds for
            expenditures paid on commitments executed after the obligation deadline.




                                             29
Comment 3   The Authority agreed with recommendation 2A in terms of the purchase orders to
            Distinctive Home Builders and vendor B. It stated that the purchased orders to
            Distinctive Home Builders, totaling $31,000 (rows 1 through 11 in Appendix C),
            and the purchase orders to vendor B, totaling $7,225 (rows 12 and 13 in Appendix
            C), should have been charged to the appropriate Asset Management Project’s
            Capital Fund and not the Recovery Act funds. The Authority stated that it
            prepared two journal entries to correct the oversight.

            To address this portion of recommendation 2A, the Authority will need to provide
            documentation to HUD to support this correction. It will also need to address the
            expenditures made against purchase orders PO011439 and PO12411, and contract
            BP2011-03 (rows 15-17 of Appendix C, respectively), which comprise the
            remaining $211,289 amount.

Comment 4   The Authority did not agree with recommendation 2B. It stated that there was a
            budget revision to the Recovery Act competitive grant to transfer the unspent
            $76,180 to the other budget line item of interior and exterior lighting. Given the
            transfer, the Authority reasoned that the funds should not be recaptured in the
            Line of Credit Control System. Then, on December 21, 2011, the Authority
            provided invoices with work logs to show that its force account labor began work
            before the obligation deadline.

            PIH Notice 2010-34, section V.E. states that public housing agencies must
            obligate 100 percent of the grant within one year of the annual contributions
            contract amendment effective date. At the one year date, all unobligated funds
            will be unilaterally recaptured. Extension of the deadlines is not permitted under
            the Recovery Act. Therefore, the $76,180 cannot be transferred to another work
            item, but needs to be recaptured. In addition, we reviewed the documentation
            provided by the Authority. The description detailed in several of the invoices did
            not relate to the installation of the low-flow toilets. Two potentially related
            invoices indicated total rehabilitation of the bathroom at one Sunnyreach Acres
            unit. However, the dates of work occurred from January 19, 2010 to January 27,
            2010, whereas the purchase of the low-flow toilets occurred in March 2010.
            Therefore, the $76,180 was not properly obligated and should be recaptured.

Comment 5   The remaining funds to be put to better use deal with the bathroom rehabilitation
            work at Sailboat Bend and flooring at Sunnyreach Acres. The Authority implied
            that the unspent funds related to the bathroom rehabilitation should not be
            recaptured because it reasoned that the funds were properly obligated by the
            contract executed with Spires Construction. In addition, the Authority stated that
            funds to contract with Macdonalds Flooring were obligated with a commitment
            the Authority had with Andreu Construction.

            As explained in comment 2, the contract with Spires Construction only obligated
            $70,831 of the $300,000 the Authority obligated for the work item. For the
            flooring contract, the Authority issued a purchase order to Andreu Construction



                                            30
            on March 1, 2010, for $5,000. The Authority executed the contract with
            Macdonalds Flooring on April 15, 2011, for $92,080. According to the definition
            of obligation in 24 CFR 85.3, the purchase order with Andreu Construction did
            not obligate the funds for the contract with Macdonalds Flooring. Funds not
            properly obligated by the deadline and unspent are to be recaptured.

Comment 6   The Authority agreed with the condition and stated that there was a
            misclassification of the funds. It is in the process of correcting the billing to the
            City of Fort Lauderdale to rectify the duplication.

            Recommendation 2C will be resolved after the Authority submits to HUD
            documentation evidencing that the duplication has been corrected. The wording
            in the recommendation was revised to reflect the alternative method to correct the
            condition.

Comment 7   The Authority disagreed with recommendation 2D. As an example, it stated that
            the work described in Appendix E related to costs that were for bathroom and
            kitchen rehabilitation, interior painting, and electrical work, and had the Authority
            categorized the work into those categories, the conditions OIG identified would
            not have existed. In addition, the Authority stated that the OIG mistakenly looked
            at each separate item and assumed them to be maintenance instead of a total
            rehabilitation.

            Our review of the expenditures by the Authority’s force account labor to perform
            bathroom and kitchen rehabilitation, interior painting, and electrical upgrade work
            resulted in $70,745 of ineligible costs. Ineligible costs included (1) labor and
            material costs unrelated to the work item identified in the annual statements, (2)
            work performed at locations other than those listed in the annual statements, and
            (3) expenditures paid twice for the same work. For the bathroom rehabilitation
            work performed by the force account labor at Sailboat Bend, several of the
            invoices related to the rehabilitation of the kitchen. PIH Notice 2009-12, section
            VI, states that public housing agencies must use Recovery Act funds on Capital
            Fund-eligible activities currently identified in either their annual statement or 5-
            year action plan. Therefore, these expenditures were ineligible because the
            Authority did not budget funds for kitchen rehabilitation work at Sailboat Bend in
            its annual statement.

Comment 8   The Authority stated that the unsupported amounts related to work done to
            rehabilitate bathrooms, kitchens, interior painting and electrical. It stated that
            Exhibit 2D shows a sample and explains in detail the work done and the proper
            classification. The exhibit indicates that 13 of the 16 invoices listed in Appendix
            E were not charged to the appropriate grant and needs to be reclassified.

            Our review of the expenditures by the Authority’s force account labor to perform
            bathroom and kitchen rehabilitation, interior painting, and electrical upgrade work
            resulted in $33,953 of unsupported costs. Unsupported costs included (1) labor



                                              31
              costs that did not have the employee work log to support the invoice or for which
              receipts for materials were missing; (2) supporting documentation (such as
              employee work logs or receipts for materials) that lacked a description of the
              work performed, contained an unclear description of the work, or did not list the
              units where the work was performed; and (3) hours charged on the invoices that
              were not supported by the employee work logs. Recommendation 2E will be
              resolved when the Authority provides documentation to HUD to support that the
              $33,953 is an eligible cost under the Recovery Act or the expenditure should be
              reclassified to another grant fund, if applicable. For the costs that cannot be
              sufficiently supported, it should repay the U.S. Treasury from non-Federal funds.

Comment 9     The Authority agreed with recommendation 2F, stating that it will promptly
              reclassify the amount charged to the Recovery Act fund to the correct work item
              accounts.

              Recommendation 2F will be resolved when the Authority provides documentation
              to show that it classified the expenditures to the correct work item accounts.

Comment 10 The Authority agreed with recommendation 2G, stating that the $2,850 was an
           unrelated expense and will be reclassified as a capital improvement to the
           appropriate asset management project.

              The $2,850 is comprised of two amounts. The $2,450 charged to the bathroom
              rehabilitation work item was unrelated to bathroom rehabilitation and according
              to the Authority will be reclassified to the appropriate Asset Management Project.
              However, the other $400 is a duplicate payment made to a vendor for painting the
              same unit and should be repaid to the U.S. Treasury from non-Federal funds.

Comment 11 The Authority stated that it implemented new forms which detail unit locations
           and numbers and implemented new procedures for the use of its force account
           labor.

              The Authority has taken initial steps to improve its process. If it continues to
              implement controls as those mentioned in recommendation 2H, future incidences
              may be prevented.

Comment 12 The Authority agreed with recommendations 3A and 3B. It will correct its
           records and maintain the number of jobs created or retained and the number of
           payment and amount of payments to vendors. This information will be made
           available to the Miami HUD Office. The Authority will also report the vendor
           information to the Federal Reporting Web site in the next reporting cycle.

              By taking the above measures and implementing procedures to address the
              recommendations, the conditions identified in the finding will be corrected.




                                              32
     Appendix C

                         COMMITMENTS EXECUTED AFTER
                            OBLIGATION DEADLINE


                   Date         Obligation
                document         deadline                                                    Executed    Expended    Ineligible   Recapture
                        (1)                                                                                    (2)                       (3)
#    Document   executed        for grant                        Description                 amount      amount       amount      amount
Vendor A
                                                     Rehab Sailboat Bend unit #503
1    PO009708   5/11/2010        3/17/2010           (invoice 07012010)                        $ 3,850     $ 3,850    $ 3,850
                                                     Renovate bathroom at Sailboat Bend
2    PO010022   6/15/2010        3/17/2010           unit #516 (invoice 07302010A)             $ 1,900     $ 1,900    $ 1,900
                                                     Renovate bathroom at Sailboat Bend
3    PO010023   6/15/2010        3/17/2010           unit #201 (invoice 07302010)              $ 1,900     $ 1,900    $ 1,900
                                                     Renovate bathroom at Sailboat Bend
4    PO010782    9/8/2010        3/17/2010           unit #712 (invoice 10152010)              $ 1,900     $ 1,900    $ 1,900
                                                     Renovate bathroom at Sailboat Bend
5    PO010783    9/8/2010        3/17/2010           unit #601 (invoice 10112010)              $ 1,900     $ 1,900    $ 1,900
                                                     Renovate bathroom at Sailboat Bend
6    PO010902   11/23/2010       3/17/2010           unit #505 (invoice 11012010)              $ 1,900     $ 1,900    $ 1,900
                                                     Change order – materials supplied
                                 3/17/2010           for unit #505 (invoice 11012010A)         $ 1,600     $ 1,600    $ 1,600
                                                     Renovate bathroom at Sailboat Bend
7    PO012048   2/23/2011        3/17/2010           unit #512 (invoice 03142011-A)            $ 3,150     $ 3,150    $ 3,150
                                                     Renovate bathroom at Sailboat Bend
8    PO012367    4/4/2011        3/17/2010           unit #410 (invoice 4-26-11)               $ 3,150     $ 3,150    $ 3,150
                                                     Renovate bathroom at Sailboat Bend
9    PO012937    6/1/2011        3/17/2010           unit #311 (invoice 20110523-2)            $ 3,150     $ 3,150    $ 3,150
                                                     Renovate bathroom at Sailboat Bend
10   PO013317   6/27/2011        3/17/2010           unit #415 (invoice 20110627-3)            $ 2,825     $ 2,825    $ 2,825
                                                     Renovate bathroom at Sailboat Bend
11   PO013544   6/15/2011        3/17/2010           unit #103 (invoice 20110720-1)            $ 3,775     $ 3,775    $ 3,775
Vendor B
                                                     Rehab Sailboat Bend unit and
12   PO010024   6/15/2010        3/17/2010           replace toilet at unit                    $ 3,150     $ 3,150    $ 3,150
                                                     Rehab Sailboat Bend handicap
13   PO011008   10/6/2010        3/17/2010           bathroom                                 $11,250      $ 4,075    $ 4,075
Vendor A
     IFB#09-                                         Bathroom rehab for 24 units at
14     04-2     11/29/2010       3/17/2010           Sailboat Bend                            $94,605      $83,709    $ 83,709

                                          (4)
                              Sub-total         – Bathroom rehabilitation at Sailboat Bend                           $121,934       $70,335
Vendor A
15   PO011439   12/2/2010        9/23/2010           Replace toilets at Sailboat Bend          $ 7,800     $ 6,500    $ 6,500        $1,300




                                                                      33
                     Date       Obligation
                  document       deadline                                        Executed     Expended    Ineligible   Recapture
                          (1)                                                                       (2)                       (3)
#    Document     executed      for grant               Description              amount       amount       amount      amount
Vendor C
                                             Install 5-ton A/C unit with
                                             connecting duct work (invoice
16   PO012411      4/7/2011     9/23/2010    28419)                                 $ 6,500     $ 6,500     $ 6,500
Vendor D
    BP2011-
17      03         4/15/2011    3/17/2010    Flooring at Sunnyreach Acres          $98,677      $76,356     $ 76,356     $22,321


                                                                   (4)
                                                           Total                                           $211,289      $93,956

(1) This is the date the contract was executed and the date the purchase order was first created in the Authority’s system.

(2) Expended totals are as of September 30, 2011.

(3) These are funds that have been obligated after the deadline, but have not yet been expended. Specifically, the Authority
    obligated $300,000 for the bathroom rehabilitation work item at Sailboat Bend. It executed $107,732 in commitments by
    the deadline to support the $300,000 obligation. Therefore, $192,268 of the $300,000 ($300,000 - $107,732) was not
    supported by commitments that were executed before the deadline. After the deadline, the Authority executed additional
    commitments, for a cumulative total of $247,736. It expended $229,665, of which $107,732 is eligible because the
    expenditures were paid against the commitments executed before the deadline and $121,934 is ineligible because the
    expenditures were paid against the commitments executed after the deadline. The remaining $70,335 ($300,000 -
    $229,665) is funds to be recaptured or funds to be put to better use because the funds were obligated without proper
    supporting commitments and have not yet been expended.

     The Authority issued a purchase order to the vendor for $7,800, of which $6,500 has been expended. The $6,500 is
     ineligible because the expenditures were paid against the commitment that was executed after the deadline. The
     remaining $1,300 balance is funds to be recaptured or funds to be put to better use because the funds have not yet been
     expended.

     The Authority executed a contract and change order with the vendor for $98,677, of which $76,356 has been expended.
     The $76,356 is ineligible because the expenditures were paid against the commitment that was executed after the deadline.
     The remaining $22,321 balance is funds to be recaptured or funds to be put to better use because the funds have not yet
     been expended.

(4) Totals are rounded.




                                                             34
Appendix D

      CHARGES TO RECOVERY ACT AND CDBG GRANTS

                                                                                                    Information
                                                                                                   obtained from
 #                     Information obtained from Authority’s Step-Up invoices                           City
                                                             Hours charged      Amount charged        Check to
                                    Time period listed         to Recovery      to Recovery Act    Authority for
     Invoice #   Invoice date           in work log             Act grant            grant        reimbursement
     Sailboat - bathroom
                                                                                                   #521417 and
 1     1779        7/1/2010         4/6/2010 - 4/9/2010            32           $     935.04         #539221
     Sunnyreach - painting
                                                                                                   #521417 and
 2     1261        1/8/2010         1/4/2010 - 1/8/2010            40           $   1,600.00         #539221
                                                                                                   #521417 and
 3     1608        4/16/2010        4/5/2010 - 4/9/2010            40           $   1,168.80         #539221
                                                                                                   #521417 and
 4     1591        4/16/2010       4/12/2010 - 4/16/2010           40           $   1,168.80         #539221
     Sunnyreach - kitchen
                                                                                                   #521417 and
 5     1174       10/16/2009      10/5/2009 - 10/16/2009           80           $   2,000.00         #539221
                                                                                                   #521417 and
 6     1257        12/4/2009      11/23/2009 - 12/4/2009           80           $   2,000.00         #539221
                                                                                                   #521417 and
 7     1256       12/16/2009      12/7/2009 - 12/18/2009          88.5          $   2,212.50         #539221
                                                                                                   #521417 and
 8     1346        2/5/2010         2/3/2010 - 2/5/2010            24           $     701.28         #539221
                                                                                                   #521417 and
 9     1478        3/12/2010       3/8/2010 - 3/12/2010            40           $   1,168.80         #539221
                                                                                                   #521417 and
10     1781        7/1/2010        4/8/2010 - 4/12/2010            24           $     701.28         #539221
                                                                                                   #521417 and
11     1521        4/30/2010       4/26/2010 - 4/30/2010           34           $     993.48         #539221
                                                                                                   #521417 and
12     2016        12/1/2010            10/1/2010                   2           $      58.44         #539221
                                                                                                   #521417 and
13     2058        12/1/2010            10/4/2010                   8           $     233.76         #539221
                                                                                                   #521417 and
14     2065       10/15/2010      10/11/2010 - 10/14/2010           9           $     262.98         #539221
15     2088       12/29/2010            10/21/2010                  2           $      58.44         #540707
16     2148        12/1/2010      10/25/2010 - 10/29/2010           9           $     262.98         #540707
17     2153        12/1/2010      10/27/2010 - 10/29/2010          10           $     292.20         #540707
18     2223        11/5/2010       11/1/2010 - 11/3/2010           12           $     350.64         #540707
19     2219        11/5/2010     11/1/2010 and 11/4/2010           12           $     350.64         #540707
20     2106       12/29/2010      11/8/2010 - 11/10/2010           20           $     584.40         #540707
21     2217       11/12/2010      11/8/2010 - 11/10/2010           12           $     350.64         #540707
22     2123       12/29/2010    11/10/2010 and 11/12/2010          12           $     350.64         #540707
23     2241       12/31/2010      11/30/2010 - 12/29/2010          72           $   2,103.84         #540707
24     2444        5/27/2011       5/23/2011 - 5/27/2011          30.5          $     930.25         #540956



                                                      35
                                                                                                    Information
                                                                                                   obtained from
#                      Information obtained from Authority’s Step-Up invoices                           City
                                                             Hours charged      Amount charged        Check to
                                    Time period listed         to Recovery      to Recovery Act    Authority for
     Invoice #   Invoice date           in work log             Act grant            grant        reimbursement
     Sunnyreach - bathroom
                                                                                                   #521417 and
25     1206      11/13/2009       11/2/2009 - 11/13/2009           72           $    1,800.00        #539221
                                                                                                   #521417 and
26     1214      11/27/2009       11/16/2009 - 11/25/2009          62           $    1,550.00        #539221
                                                                                                   #521417 and
27     1221      12/11/2009       11/30/2009 - 12/11/2009          72           $    1,800.00        #539221
                                                                                                   #521417 and
28     1289       1/22/2010        1/11/2010 - 1/19/2010           48           $    1,402.56        #539221
                                                                                                   #521417 and
29     1285       1/22/2010        1/19/2010 - 1/22/2010           32           $      935.04        #539221
                                                                                                   #521417 and
30     1349       2/5/2010         1/25/2010 - 1/27/2010           24           $      701.28        #539221
                                 1/25/2010 - 1/29/2010 and                                         #521417 and
31     1345       2/5/2010          2/1/2010 - 2/2/2010            56           $    1,636.32        #539221
                                                                                                   #521417 and
32     1383       2/19/2010        2/8/2010 - 2/12/2010            40           $    1,168.80        #539221
                                                                                                   #521417 and
33     1376       2/19/2010        2/16/2010 - 2/19/2010           24           $      701.28        #539221
                                                                                                   #521417 and
34     1428       3/5/2010         2/22/2010 - 2/26/2010           32           $      935.04        #539221
                                                                                                   #521417 and
35     1447       3/5/2010          3/1/2010 - 3/5/2010            40           $    1,168.80        #539221
                                                                                                   #521417 and
36     1466       3/19/2010        3/15/2010 - 3/19/2010           32           $      935.04        #539221
                                                                                                   #521417 and
37     1617       4/2/2010         3/29/2010 - 4/2/2010            40           $    1,168.80        #539221


                                                                                $   36,742.79




                                                      36
Appendix E

                 STEP-UP CHARGES FOR SAILBOAT BEND
                  BATHROOM REHABILITATION WORK

General work description in formula grant annual statement
     Development name                       General description of major work category                   Quantity
       Sailboat Bend          Bathroom rehabilitation – New plumbing fixtures, bathtubs, sinks, low-     1 high rise
                              flow toilets, new shower tile, and floor tile


Step-up invoices charged to bathroom rehabilitation work
                                                                                           Work         Development
                                                                       Room where       unrelated to    where work
       Invoice
 #                 Unit                       Work                      work was          capital      was performed
          #
                                                                        performed        bathroom         if not at
                                                                                           rehab       Sailboat Bend
 1      1247     Community     Install GFI circuits in bathroom          Bathroom
 2      1219        204        Replace shower valve                      Bathroom            X
                                                                        Mechanical
                 Store room    Remove copper lines and cap drain          room of            X
                                                                         building
                               Kitchen faucet repair and bathroom       Kitchen and
 3      1227        206                                                                      X
                               sink handle                               bathroom
                               Clogged drained kitchen sink (2
                    217                                                   Kitchen            X
                               hours)
                               (1) Kitchen faucet repair, (2) shower    Kitchen and
                    410                                                                      X
                               valve                                     bathroom
                               (1) Kitchen faucet, (2) toilet, (3)      Kitchen and
                    416                                                                      X
                               toilet seat                               bathroom
                    418        Toilet repair                             Bathroom            X
                    610        Kitchen faucet repair                      Kitchen            X
                               Toilet water cover and overflow
                    714                                                  Bathroom            X
                               repair
                               Measure cabinets, cut cabinets and
 4      1259        402                                                   Kitchen            X
                               counters
                               Measure cabinets, cut cabinets and
                    610                                                   Kitchen            X
                               counters
 5      1374       610         Laminate counter and backsplash            Kitchen            X
 6      1464       310         Measure                                    Kitchen            X
                   509         Measure                                    Kitchen            X
                   610         Caulk and clean                            Kitchen            X
 7      1471       305         Relocate bathroom panic switches          Bathroom
                   306         Relocate bathroom panic switches          Bathroom
                  Central      Relocate light switch in conference     Administration
                                                                                             X
                  office       room and refocus light fixture              office
                               Cut and assemble countertops and
 8      1631        509                                                   Kitchen            X
                               cabinets




                                                        37
                                                                                       Work         Development
                                                                   Room where       unrelated to    where work
     Invoice
#               Unit                     Work                       work was          capital      was performed
        #
                                                                    performed        bathroom         if not at
                                                                                       rehab       Sailboat Bend
9     1643       202     Install cabinets                             Kitchen            X
                 402     Laminate cabinets                            Kitchen            X
                         (1) Laminate cabinet, counters, doors,
10    1649       202     (2) install kitchen cabinets and             Kitchen            X
                         countertop
               2335 NW
11    1779               Tile bathroom                                                             Suncrest Court
                16 CT
                         Cut and assemble base cabinets and
12    1827       210                                                  Kitchen            X
                         countertops
                 414     Install cabinets                             Kitchen            X
                         Cut and assemble base cabinets and
                 503                                                  Kitchen            X
                         countertops
                 611     Install cabinets                             Kitchen            X
                         Build and laminate cabinets and
13    1831       201                                                  Kitchen            X
                         countertops
                         Build and laminate cabinets and
                 414                                                  Kitchen            X
                         countertops
                         Cut and assemble corner cabinets and
                 503                                                  Kitchen            X
                         counter
                         Laminate office door, install office
               Central                                             Administration
                         door, and installed 4 cabinet doors in                          X
               office                                                 office
                         kitchen
14    1899       201     Install kitchen cabinets                     Kitchen            X
                 503     Install cabinets                             Kitchen            X
15    2003       516     Caulk, install shelves, and plumbing         Kitchen            X
                         (1) Demolition bathroom walls, (2)                                         Sunnyreach
16    2312       212
                         tile bathroom, (3) remove fixtures                                           Acres
                         (1) Demolition and install bathroom
                         walls; (2) tile bathroom; (3) install
                         tissue holder, toothbrush holder, and                                      Sunnyreach
                 214
                         towel bar; (4) repair leak; (5) install                                      Acres
                         shower/tub valve; (6) tile bathroom
                         wall
                         (1) Tile bathroom floor; (2) install
                                                                                                    Sunnyreach
                 215     tissue holder, toothbrush holder, and
                                                                                                      Acres
                         towel bars; (3) final fixture set
                         (1) Patch wall, (2) repair leak under                                      Sunnyreach
                 506
                         kitchen sink                                                                 Acres




                                                    38
